No. 19-A-

IN THE
SUPREME COURT OF UNITED STATES

ALFRED LAM and PAULA LEIATO,
Tetitioners-Tfaintiffi,
V.
CITY & COUNTY OF SAN FRANCISCO;
SAN FRANCISCO JUVENILE PROBATION DEPARTMENT;
Respondent-Defendants,

On Petition for Certiorari to the United States Supreme Court
From the Court of Appeals for the Ninth Circuit

APPLICATION FOR EXTENSION OF TIME TO
FILE A PETITION FOR A WRIT OF CERTIORARI

Alfred Lam and Paula Leiato (in Pro Per)
P.O. Box 16376 San Francisco, CA 94116
Tel: (415) 992-0071

1

TO THE HONORABLE JUSTICE ANTHONY KENNEDY, JUSTICE OF THE
SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR
THE NINTH CIRCUIT:
Pursuant to Supreme Court Rules 13.5, 22 and 30, Petitioners respectfully
request a 55-day extension of time, up to and including September 11, 2019, to file a
petition for a writ of certiorari to the United States Court of Appeals for the Ninth
Circuit to review that court's decision in In re: No: 16-15596 (9th Cir.) (attached as
Exhibit A). It issued its judgment on March 18, 2019. The motion of reconsideration
was denied on April 19, 2019. The jurisdiction of this Court will be invoked under
U.S.C. section 1254(1), and the time to file for a writ of certiorari will expire without
an extension on July 18, 2019. This application filed by the petitioners is timely
because it has been filed more than ten days prior to the date on which the time for
filing the petition is to expire.
This case presents a substantial and important question of federal law;
whether defendants can be held liable pursuant to Rule 60(b) of their employee's
misconduct including workplace harassment, the Ninth Circuit's judgment conflicts
with this Court's precedents and created a split of authority with other Circuits. See
(Burlington Industries, Inc. v. EtThrth, 524 U.S. 742 (1998).
Petitioners in pro se will be filing three related but separate petitions with
deadline within one day of each other for a writ of certiorari to United States Court
of Appeals for the Ninth Circuit to review that court's decision in In re: No: 16-15596
(9th Cir.); 16-16559 (9th Cir.) and 17-15208 (9th Cir.) (attached Exhibit A). All of these

2

commitments will significantly limit petitioner's availability to work on this matter
between today and July 18, 2019.
Accordingly, the petitioners respectfully request that an order be entered
extending the time to file a petition for a writ of certiorari for 55 days, up to and
including September 11, 2019.

Dated: June 25, 2019
Respectfully Submitted,
/s/ alfred lam

/s/ paula leiato

Alfred Lam (Pro Se) Paula Leiato

3

